           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


            CONTRACT WITH
   RIOJAS ENTERPRISES, INCORPORATED,
FOR CASE FOLDER FILING SUPPORT SERVICES

          CONTRACT #0600-98-34420


       June 2007        A-04-07-17027




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:      June 19, 2007                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Contract with Riojas Enterprises, Incorporated, for Case Folder Filing Support
           Services – Contract #0600-98-34420 (A-04-07-17027)


           OBJECTIVES
           Our objectives were to (1) review the services provided by Riojas Enterprises,
           Incorporated (Riojas), and the related costs charged to the Social Security
           Administration (SSA) for adherence to the negotiated contract terms and applicable
           regulations and (2) ensure that SSA personnel properly monitored the contract.

           BACKGROUND

           SSA’s Office of Central Operations operates the national folder storage facility in
           Baltimore, Maryland, known as the Megasite. This facility houses over 5 million active
           Title II folders. Field offices, disability determination services (DDS), hearing offices,
           and program service centers (PSC) routinely request case folders from the Megasite to
           facilitate initial and post-entitlement actions. In August 1998, SSA hired a contractor,
           Riojas, to provide all clerical and file support involved in filing and retrieving individual
           folders, filing loose documentation in folders, and deactivating folders. The firm-fixed-
           price contract was performed between August 1998 and March 2004 at a total cost of
           approximately $39.2 million.

           The initial contract established a base year of services with options to extend the
           contract annually for 4 additional years. The contract was extended in each of the
           4 option years. Further, after the end of the fourth option year, SSA and the contractor
           agreed to extend the contract (about 6 months) until the new contractor was in place.
Page 2 - The Commissioner


Our August 2002 report on Case Folder Storage and Retrieval at the Social Security
Administration’s Megasite Records Center found that case folder retrieval was a
significant problem for field offices, DDSs, hearings offices, and PSCs. Specifically, we
found the Megasite’s physical inventory and Processing Center Action Control System
computerized inventory were not accurate, and folders were not being delivered to field
components timely. SSA agreed with our overall recommendations from this audit and,
in part, agreed to perform independent quality assurance reviews to assess and
document the contractor’s performance in accordance with the contract provisions.

The Office of Budget, Finance and Management's (OBFM) mission is to provide
leadership and oversight on key SSA programs and initiatives. The Office of
Acquisition and Grants (OAG), a component within OBFM, is responsible for issuing
and administering SSA contracts, purchases, and grants. The Contracting Officer,
appointed by OAG, is responsible for the award and administration of SSA contracts.
The Project Officer is designated by the respective component’s management and is
responsible for the technical administration of the contract.

SCOPE AND METHODOLOGY
We reviewed the contract and all the contract modifications. To assess contract
compliance, we verified that quantities and types of services billed on each of the
contractor’s invoices agreed with Riojas’ production reports and the services were billed
at the correct rate. We also tested each of the contractor’s invoices to ensure SSA paid
the invoices accurately and timely.

In March 2004, another contractor was awarded the contract for the folder servicing
operations at the Megasite. Actions taken on the folders by the new contractor have
impacted the condition of the case folders since the time Riojas completed its work at
the Megasite. Therefore, the condition of the case folders at the time of our audit would
not provide an accurate representation of Riojas’ performance. Accordingly, we did not
attempt to test the accuracy of the folder filings and folder condition at the time of our
fieldwork. See Appendix B for further details on our scope and methodology.

RESULTS OF REVIEW
Riojas’ monthly production reports, which detail the total volume of each type of service
performed under the contract, matched the totals on the invoices submitted to SSA for
payment. Further, Riojas submitted the invoices in a timely manner, and SSA made
prompt and accurate payments.

However, because of SSA contract staff turnover and a lack of oversight
documentation, we were unable to review the quality of the services provided by Riojas,
determine whether Riojas’ production reports were accurate, or verify that SSA
conducted quality assurance reviews of Riojas’ performance throughout the term of the
contract. Given that SSA paid about $39 million to Riojas over the term of the contract,
we were concerned (1) with the lack of documentation that was available to support
Page 3 - The Commissioner


whether SSA conducted quality assurance and performance reviews and (2) that our
previous audit, Case Folder Storage and Retrieval at the Social Security
Administration’s Megasite Records Center (August 2002), identified a similar problem,
which SSA did not appear to remedy as a result of our review and recommendations.
Finally, although the contract was completed in 2004, it had not been properly closed.

IMPROVEMENTS NEEDED IN DOCUMENTING SSA’S OVERSIGHT OF CONTRACT
PERFORMANCE

As of June 2006, at the start of our audit, SSA staff responsible for overseeing the
contract, including the Contracting and the Project Officers, were no longer employed
by SSA. As a result, we were unable to interview staff who had personal experience
and knowledge of the work performed by Riojas during the contract period. See
Appendix C for details of the Contracting and Project Officer responsibilities.

In addition, SSA could not provide us with portions of the contract file that included the
contractor’s monthly production reports, quality control reports, or documentation
regarding SSA’s quality assurance reviews or reviews of Riojas’ monthly production
reports. According to policy, the Project Officer is responsible for post-award
administrative duties that include monitoring technical performance and reviewing
progress reports. 1 Further, Federal regulation requires that the documentation in the
contract files shall be sufficient to constitute a complete history of the transaction for a
number of purposes. 2 Regulatory guidance also indicates that a contract file should,
among other things, include the contract administration office contract file that
documents the basis for, and the performance of, contract administration
responsibilities, 3 and normally contains quality assurance records. 4

An OAG official explained that documentation, such as quality assurance reviews is
generally maintained by the Project Officer and this information should be forwarded to
the Contracting Officer. Although there are no regulatory requirements for a Project
Officer to maintain a contract file, the Department of Health and Human Services,
Project Officers’ Contracting Handbook—which OAG used as part of its contracting




1
    Social Security Acquisitions Handbook, Subpart H2301.102-4(c)(1)(i).
2
  Federal Acquisition Regulation (FAR) Volume I, Part 4 – Administrative Matters, Subpart 4.801(b),
48 C.F.R. § 4.801(b). The enumerated purposes are (1) Providing a complete background as a basis for
informed decisions at each step in the acquisition process; (2) Supporting actions taken; (3) Providing
information for reviews and investigations; and (4) Furnishing essential facts in the event of litigation or
congressional inquiries.
3
    FAR, supra, 4.802(a)(2), 48 C.F.R. § 4.802(a)(2).
4
    FAR, supra, 4.803(b)(15), 48 C.F.R. § 4.803(b)(15).
Page 4 - The Commissioner


guidelines—states that a project file will enhance the Project Officer’s ability to
effectively and efficiently monitor a contractor’s progress. 5 Moreover, the Handbook
indicates that the project file would provide data to ensure continuity in contract
administration should there be a change in Project Officers during a contract. 6

We were particularly concerned that SSA could not provide a complete contract file that
included documentation that it performed quality assurance reviews of Riojas’ work
throughout the term of the contract or reviewed the quality reviews performed by Riojas.
The only evidence of SSA’s quality assurance reviews was an e-mail documenting an
October 1998 meeting where SSA’s officials discussed their quality assurance findings
with Riojas representatives. This meeting occurred just a few months after the start of
the contract. However, SSA could not provide any further documentation to support its
quality assurance efforts throughout the remaining term of the contract.

An OAG official explained the Gwynn Oak Building, which houses OAG staff and
contract files, was flooded in July 2004. The official speculated that this may explain
why all contractor performance-related information could not be located. However,
OAG officials could not specifically determine whether any of the Riojas contract files
were lost or destroyed as a result of the flood. Although the flood may explain the
missing records, a representative from the Office of Central Operations who was
involved in the search for contract documentation explained that, even though she was
not assigned to the Riojas contract, it appeared to her that SSA did not perform quality
assurance reviews during the contract period. Finally, a Riojas official informed us that
SSA did not provide them with copies of its quality assurance reports.

Riojas conducted its own monthly quality reviews and reported an overall accuracy rate
96 percent in December 1998 and 99.9 percent in October and November 2003.
However, as previously stated, SSA could not provide any evidence it independently
verified the results of these reviews.

In response to our August 2002 audit of Case Folder Storage and Retrieval at the
Social Security Administration’s Megasite Records Center, SSA informed us it
“performed periodic quality assessments of the contractor’s performance by evaluating
the condition of the Megasite inventory.” However, even at that time, we could not
verify the results of these assessments because SSA did not maintain documentation
of the




5
 U.S. Department of Health and Human Services (DHHS), DHHS Project Officers’ Contracting Handbook,
Section V, Subpart P, p. V-28.
6
    Id.
Page 5 - The Commissioner


assessment results. SSA admitted it stopped these quality assurance reviews early in
Fiscal Year 2001 to devote resources to other workloads but reported that it resumed
the assessments in January 2002. However, no records were available to document
the test results.

Our previous report recommended that SSA perform independent quality assurance
reviews to ensure the integrity of the Megasite’s folder inventory. Further, we stated
that, as part of the quality assurance review process, SSA should assess and document
the contractor’s performance in accordance with the contract provisions. SSA agreed
with this recommendation. However, it should be noted that, in the remaining
19 months of the contract after our report was issued, SSA still could not provide
documentation or show the results of any quality assurance reviews it should have
performed.

We believe SSA should ensure the integrity of all contract documentation in case of
staff turnover. For example, if the Contracting Officer or Project Officer, or both, leaves
SSA’s employment during or after a contract period, any documentation in their
possession relating to the contract should be kept as part of the contract files. We also
believe that SSA should formally and fully document its quality assurance reviews
performed on the contractor. This includes a detailed description of the items SSA
reviewed during quality assurance and the results of the assessments.

CONTRACT FILE NEEDED TO BE OFFICIALLY CLOSED

Files for firm-fixed-price contracts, other than those using simplified acquisition
procedures, should be closed within 6 months after the date on which the Contracting
                                                    7
Officer receives evidence of physical completion. A contract is completed when all
services have been rendered; all articles, material, report data, exhibits, etc., have been
delivered and accepted; all administrative actions accomplished; and final payment has
been made to the contractor. 8 Contract closeout actions are primarily the responsibility
of the Contracting Officer, but the assistance of the Project Officer will be required to
certify that all services have been rendered satisfactorily and all deliverables are
complete and acceptable. 9

Final payment on this contract was made in April 2004. However, the contract still
remains open—more than 3 years later. An SSA official stated that the contract
probably has not been closed because the Contracting Officer is no longer with SSA
and it has been overlooked.




7
    FAR, supra, 4.804-1(a)(2), 48 C.F.R. § 4.804-1(a)(2).
8
    DHHS, supra, Section V, Subpart O, p. V-26.
9
    Id.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Because of SSA staff turnover and a lack of contract documentation, we were unable to
review the quality of the contract services provided by Riojas. Although Riojas received
$39 million over the course of the contract, SSA could not provide documentation to
prove it conducted quality assurance reviews of Riojas’ performance throughout the
term of the contract or that it reviewed Riojas’ monthly production reports. The records
maintained at the Megasite are often essential for SSA to make sound decisions on
beneficiary entitlements. Given the large amount of this contract and the importance of
these records, we believe SSA should have put more emphasis on performing quality
assurance assessments on Riojas’ work and documenting the results of the
assessments—especially in light of our previous audit findings. Further, the contract
remains open more than 3 years after its completion.

We recommend SSA:

1. Ensure appropriate personnel review and document contractors’ performance to
   determine whether goods and services are received in accordance with the contract
   terms.

2. Officially close the Riojas contract and ensure that all future contracts are closed
   according to SSA policy.

3. Maintain all relevant documentation in the contract files to constitute a complete
   history of the transaction, even in the case of staff turnover.

AGENCY COMMENTS

The Agency agreed with our recommendations and has initiated corrective actions.




                                                 Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Contracting and Project Officer Responsibilities

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgements
                                                    Appendix A

Acronyms
DDS      Disability Determination Services
DHHS     Department of Health and Human Services
OAG      Office of Acquisition and Grants
FAR      Federal Acquisition Regulation
OBFM     Office of Budget, Finance and Management
OIG      Office of the Inspector General
PSC      Program Service Center
Riojas   Riojas Enterprises, Incorporated
SSA      Social Security Administration
                                                                      Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Obtained and reviewed the contract and all the modifications.

•   Reviewed our August 2002 report, Case Folder Storage and Retrieval at the Social
    Security Administration’s Megasite Records Center (A-04-99-62006).

•   Reviewed pertinent sections of Social Security Administration’s (SSA) policies and
    procedures as well as other relevant Federal laws and regulations.

•   Reviewed Department of Health and Human Services, Project Officers’ Contracting
    Handbook sections.

•   Interviewed SSA’s Office of Acquisition and Grants staff to gain an understanding of
    the contract oversight procedures related to the Riojas contract.

•   Visited the Megasite to gain an understanding of the folder servicing operation.

•   Obtained the contractor invoices from the Office of Budget, Finance and
    Management.

•   Obtained the monthly production reports and quality control reports from Riojas.

•   Compared each invoice to Riojas’ monthly production reports and the contract to
    determine whether the quantity of services billed matched the production reports
    and was properly priced.

Because of SSA contract staff turnover, a lack of oversight documentation, and the
length of time that has elapsed since the completion of this contract, we were unable to
review the quality of the services provided by Riojas, determine whether Riojas’
production reports were accurate, or verify that SSA conducted quality assurance
reviews of Riojas’ performance throughout the term of the contract. Therefore, the
scope of our audit was limited to those items listed above.




                                           B-1
In addition, another contractor was awarded the contract for the folder servicing
operations at the Megasite beginning in March 2004. The actions taken on the folders
by the new contractor from March 2004 until the time of our audit field work would have
impacted both the filing accuracy and the condition of the case folders handled by
Riojas. Therefore, we did not attempt to test the accuracy of the folder filings and the
condition of the folders at the time of our visit to the Megasite.

The entities audited were Riojas Enterprises, Incorporated and the Office of
Acquisitions and Grants within the Office of Budget, Finance and Management. Our
tests of internal controls were limited to gaining and understanding of laws, regulations
and policies that govern the Federal contracting procedures necessary to address our
audit objectives. We performed our audit from June 2006 through January 2007 in
Atlanta, Georgia, and Baltimore, Maryland, in accordance with generally accepted
government auditing standards.




                                           B-2
                                                                                    Appendix C

Contracting and Project Officer Responsibilities
During the pre-solicitation phase, the Project Officer (PO) has the lead and the
Contracting Officer (CO) operates in an advisory capacity. Then, in the solicitation and
evaluation and award phases the lead shifts primarily to the CO, with the PO acting
largely as an advisor. In the post-award phase, the PO assumes lead responsibility for
some functions and the CO for others. The roles and responsibilities of the CO and the
PO are outlined below. 1


PRE-SOLICITATION PHASE                                    LEAD        SUPPORT

          MARKET RESEARCH                                 PO              CO
          IDENTIFY REQUIREMENTS                           PO              CO
          PLANNING SCHEDULE                               CO              PO
          STATEMENT OF WORK                               PO              CO
          TECHNICAL EVALUATION CRITERIA                   PO              CO
          SPECIAL APPROVALS                               PO              CO
          PREPARE SSA-393                                 PO              CO

SOLICITATION PHASE

          SYNOPSIS                                        CO              PO
          PREPARE SOLICITATION                            CO              PO
          RECEIPT OF OFFERS                               CO              PO

EVALUATION AND AWARD PHASE

          TECHNICAL EVALUATION                            PO              CO
          BUSINESS EVALUATION                             CO              PO
          DISCUSSIONS (IF REQUIRED)                       CO              PO
          CONTRACT PREPARATION & AWARD                    CO              PO
          DEBRIEFING                                      CO              PO

POST-AWARD PHASE

          MONITORING TECHNICAL PERFORMANCE                PO              CO
          REVIEWING PROGRESS REPORTS                      PO              CO
          INSPECTION AND ACCEPTANCE                       PO              CO
          CONTRACT ADMINISTRATION                              CO              PO




1
    Social Security Acquisition Regulation System, Subpart H2301.102-4(c)(1)(i).
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:     May 31, 2007                                                          Refer To:   S1J-3

To:       Patrick P. O'Carroll, Jr.
          Inspector General

From:     Larry W. Dye /s/


Subject   Office of the Inspector General (OIG) Draft Report, “Contract with Riojas Enterprises,
          Incorporated, for Case Folder Filing Support Services — Contract #0600-98-34420”
          (A-04-07-17027)—INFORMATION


          We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
          are attached.

          Please let me know if we can be of further assistance. Staff inquiries may be directed to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on (410) 965-4636.


          Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “CONTRACT WITH RIOJAS ENTERPRISES, INCORPORATED, FOR
CASE FOLDER FILING SUPPORT SERVICES – CONTRACT #0600-98-34420”
(A-04-07-17027)

Thank you for the opportunity to review and provide comments on this draft report. Our
comments on the draft recommendations are as follows.

Recommendation 1

Ensure appropriate personnel review and document contractors’ performance to determine
whether goods and services are received in accordance with the contract terms.

Comment

We agree. We will send a reminder notice to all Contracting Officers by June 30, 2007
reminding them of the importance of contract administration and their role in this process,
including: 1) ongoing communication with the Project Officer (who is responsible for
determining whether goods and services are received in accordance with the contract terms and
notifying the Contracting Officer if there are problems arising under the contract); and
2) documenting contractors’ past performance in accordance with Federal regulations and
Agency policy, as outlined below.

With respect to contractor performance in general, it is a matter of Federal regulation that a
performance evaluation be performed on all contracts with a value exceeding the simplified
acquisition threshold (currently $100,000) following contract completion (Federal Acquisition
Regulation (FAR) 42.1502(a)). It is our policy to conduct an annual review for ongoing contracts
(i.e., contracts with a period of performance, including options, that exceeds twelve months)
(Social Security Acquisition Handbook (SSAH) H2342.1502 and H2342.1503). Both the annual
reviews and the final contract review are established by the Contracting Officer in a database
maintained by the National Institutes of Health. The reviews are then routed to the Project
Officer for completion (i.e., questions about the contractor’s performance are answered by the
Project Officer).

To address issues related to the Megasite Files contract, the Project Officer has established a
project file which fully documents the performance of the current contractor (as of March 2004)
in order to ensure the Agency receives the appropriate goods and services in accordance with the
contract terms. The Project Officer currently shares this information with the Contracting Officer
as part of their support role. The Project Officer also ensures that goods and services are
properly rendered prior to certifying contract invoices.




                                               D-2
Recommendation 2

Officially close the Riojas contract and ensure that all future contracts are closed according to
SSA policy.

Comment

We agree. The Riojas contract has been sent for closeout and is expected to be closed by
September 30, 2007. To ensure all contracts are closed timely and in accordance with
FAR 4.804 and the SSAH 2304.804, we will send a reminder notice to all Contracting Officers
by June 30, 2007.


Recommendation 3

Maintain all relevant documentation in the contract files to constitute a complete history of the
transaction, even in the case of staff turnover.

Comment

We agree. We will send a reminder notice to all Contracting Officers by June 30, 2007,
regarding the importance of maintaining complete and accurate file documentations (see FAR
4.802 and 4.803). This includes documentation provided to Contracting Officers from Project
Officers.

The Project Officer has already taken action, effective with the current Megasite Files contract
(March 2004), to establish and maintain a Project Officer Project File replete with detailed
quality assurance documentation, invoices, and contract modifications.

The Project Officer has also developed a Quality Assurance Surveillance Plan (QASP). The
QASP is a detailed plan setting forth the process SSA will use to measure the contractor’s
performance. This plan also gives SSA flexibility in measuring performance and serves as a tool
to assure consistent and uniform assessment of the contractor’s performance. Monthly quality
assurance data and reports are submitted by the Project Officer to the Contracting Officer for
review, discussion, and maintenance in the official contract file.




                                                D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Mike Leibrecht, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-17027
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
